No.

IN THE
SUPREME COURT OF THE UNITED STATES

ALBERTO MATIAS-MARTINEZ

(Your Name)

— PETITIONER

VS.
DEAN WILLIAMS

— RESPONDENT(S)

PROOF OF SERVICE
T;

Alberto Matias-Martinez

, do swear or declare that on this date,

or that party s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Clerk of the U.S. Supreme Court, Washington D.C. 20543
Dean Williams & The Attorney General via counsel Ellen Michaels
1300 Broadway, 9th floor, Denver, CO 80203

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

V XH ~CLr

202L
/

RECEIVED
FEB 1 0 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

/

/

v

^

TSi|nature)

